TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   TIRNO-95-D-00061 and TIRNO-00-D-00013,
                           Incurred Costs Audit for
                              Fiscal Year 2003


                                         December 2005

                             Reference Number: 2006-1C-014




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          December 23, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    TIRNO-95-D-00061 and TIRNO-00-D-00013, Incurred Costs Audit for
                             Fiscal Year 2003 (Audit # 20061C0205)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s June 28, 2004, certified
 final indirect cost rate proposal and related books and records for the reimbursement of Fiscal
 Year 2003 incurred costs. The purpose of the examination was to determine the allowability of
 direct and indirect costs and to establish audit-determined indirect cost rates for the fiscal year
 ending December 31, 2003. The proposed rates apply primarily to flexibility priced contracts.
 The DCAA qualified its audit report pending the receipt of the assist audits of subcontract costs
 and administrative closeout. Upon receipt of the assist audit reports, the recommended
 subcontract will be reconciled with the claimed subcontract costs and supplemental reports will
 be issued as required.
 The DCAA reported that the contractor’s proposed indirect rates are not acceptable as proposed.
 The DCAA examination of the incurred cost rate proposal questioned legal expenses allocable to
 several indirect cost pools, an indirect consulting cost, and an adjustment to the claimed material
 and subcontract handling base. The DCAA indicated the contractor did not concur with all of
 the questioned corporate legal expenses. Additionally, the DCAA believes indirect costs
 questioned are subject to penalties provided in the Federal Acquisition Regulation.
 Except for potential adjustments that result from assist audits concerning unresolved subcontract
 costs, the DCAA indicated direct costs are acceptable and provisionally approved pending final
                             TIRNO-95-D-00061 and TIRNO-00-D-00013,
                             Incurred Costs Audit for Fiscal Year 2003



acceptance. The DCAA also noted that the contractor has been unable to provide schedules of
claimed Time and Material amounts by contract with its annual incurred cost submissions.
Without this information, the DCAA is unable to establish a Cumulative Allowable Cost
Worksheet regardless of the contractor’s concurrence or non-concurrence with audit-determined
indirect expense rates.
The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                   NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the Contracting Officer, to duly authorized
representatives of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
